fan

@OCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B tiefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 19-225

UNITED STATES EX REL. STEPHANIE STRUBBE,
CARMEN TRADER, AND RICHARD CHRISTIE,
Petitioners,

v.

CRAWFORD COUNTY MEMORIAL
HOSPITAL AND BILL BRUCE,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 5425 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE ‘
General Notary . Chk,
State of Nebraska : LS Qudrow he.
My Commission Expires Nov 24, 2020 «

Notary Public Affiant 38857

 

 
